         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Early Warning Report




       Making Better Use of
       Superfund Special Account
       Funds for Thermo Chem
       Report No. 2007-S-00002

       August 20, 2007
                       U.S. Environmental Protection Agency                                                 2007-S-00002

                                                                                                          August 20, 2007

                       Office of Inspector General


                       At a Glance

                                                                              Catalyst for Improving the Environment


Why We Did This Review               Making Better Use of Superfund Special
In February 2006, the Office of      Account Funds for Thermo Chem
Inspector General recommended
that the U.S. Environmental           What We Found
Protection Agency (EPA) timely
review Superfund special             We found that Region 5 missed an opportunity to make timely and better use
accounts to ensure funds are used    of the funds in the Thermo Chem special account. In 2004, Region 5 staff
consistent with its guidance.
                                     recommended the reclassification of approximately $2.8 million from the
We followed up on EPA’s
                                     Thermo Chem special account. However, these funds were not reclassified
progress in implementing this
recommendation by evaluating         because the site managers were unaware that action was needed or required.
EPA’s use of special accounts        In addition, while EPA’s guidance states that “Regions” are responsible for
that had high available balances     identifying special accounts having balances that are more than anticipated
or were at least 10 years old.       future site needs, it does not specify the title of the regional official responsible
                                     for doing so or responsible for processing the reclassification.
Background
                                     Region 5 could have used the $2.8 million (approximately) to begin
Section 122(b)(3) of the             construction at other sites in the Region. For example, according to EPA’s
Comprehensive Environmental          Web site, in Fiscal Year 2005, EPA stated that the Ottawa Radiation (Areas 1,
Response, Compensation, and          4, 9, & 11, and Illinois Power) site did not receive new construction funding.
Liability Act (CERCLA), as           Region 5 could have used the reclassified funds to begin construction at this
amended by the Superfund             site in Fiscal Year 2005.
Amendments and
Reauthorization Act, authorizes      Recently, Region 5 updated future planned uses for the account funds.
EPA to retain and use funds          Approximately $524,000 of the account funds are not planned for future use.
received in settlements to address
CERCLA response actions
contemplated in the settlement        What We Recommend
agreements. EPA retains these
funds in site-specific accounts,     We recommend that the Region 5 Administrator reclassify approximately
called “special accounts,” which     $2.8 million (plus additional accrued costs) of the Thermo Chem special
are subaccounts within the EPA       account to fund other priority response activities. We also recommend that the
Hazardous Substance Superfund        Region 5 Administrator reclassify, or transfer to the Trust Fund (as appropriate)
(Trust Fund).                        approximately $524,000 of the Thermo Chem special account that has no
                                     planned future use.
For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070820-2007-S-00002.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                        August 20, 2007

MEMORANDUM

SUBJECT:	             Making Better Use of Superfund Special Account Funds for Thermo Chem
                      Report No. 2007-S-00002


FROM:	                Wade T. Najjum
                      Assistant Inspector General
                      Office of Program Evaluation

TO:                   Mary Gade
                      Region Administrator
                      EPA Region 5


This memorandum is to inform you of Office of Inspector General (OIG) findings that require
immediate action regarding Region 5’s special account management of the Thermo Chem
Superfund site.

The OIG is conducting a review of (1) U.S. Environmental Protection Agency (EPA) regions’
utilization of special account funds for a sample of accounts with high available balances, and
(2) EPA regions’ utilization of special account funds for accounts that are 10 years or older.
During our review of selected Region 5 accounts that were at least 10 years old, we found:

   •	 Region 5 has not reclassified approximately $2.8 million from the Thermo Chem special
      account, as recommended in the Region’s April 12, 2004, Cost Recovery Closeout
      Action memorandum for the site. This is inconsistent with EPA guidance (OSWER #
      9275.1-03) on managing Superfund special accounts. When these funds are reclassified,
      they can fund other Region 5 response activities.

   •	 Reclassification did not occur because the site managers were unaware that action was
      needed or required. In addition, while EPA’s guidance states that “Regions” are
      responsible for identifying special accounts having balances that are more than
      anticipated future site needs, it does not specify the title of the regional official
      responsible for doing so or responsible for processing the reclassification. Our review of
      the Thermo Chem special account caused Region 5 to recognize the need to timely
      reclassify.



                                                1

    •	 Region 5 could have used the $2.8 million (approximately) to begin construction at other
       sites in the Region. For example, according to EPA’s Web site, in Fiscal Year 2005,
       EPA stated that the Ottawa Radiation (Areas 1, 4, 9, & 11, and Illinois Power) site did
       not receive new construction funding. Region 5 could have used the reclassified funds to
       begin construction at this site in Fiscal Year 2005.

    •	 The Thermo Chem special account was established in 1995 and has approximately
       $6 million available, as of May 31, 2007.1 However, no funds have been disbursed from
       the account as of this date. Recently, Region 5 updated future planned uses for the
       account funds. Approximately $524,000 of the account funds are not planned for future
       use.

    •	 On July 17, 2007, the Remedial Project Manager for the Thermo Chem site stated that
       Region 5’s Superfund Division will take steps to reclassify approximately $2.8 million
       from Thermo Chem’s special account and take other actions to better account for site-
       related charges that should be funded from the Thermo Chem special account.
       Additional costs have accrued since the Cost Recovery Closeout Action memorandum
       was issued in 2004; thus, additional costs could be reclassified.

We recommend that the Region 5 Administrator:

    1)	 Reclassify approximately $2.8 million (plus additional accrued costs) of the Thermo
        Chem special account to fund other priority response activities.

    2) Reclassify, or transfer to the Trust Fund (as appropriate), approximately $524,000 of the
       Thermo Chem special account that has no planned future use.

Please provide a written response to the findings and recommendations within 15 days from the
date of this memorandum. Your response should include milestones for each of the
recommendations. Please email an electronic version of your response that complies with
section 508 of the Rehabilitation Act to Carolyn Copper at copper.carolyn@epa.gov.

Our final report will include other OIG findings related to Superfund special account
management improvements in Region 5, and other Regions, as appropriate. We will include
your final response to the issues identified in this memorandum. If there are questions, I can be
reached at (202) 566-0827 or najjum.wade@epa.gov, or Carolyn Copper can be reached at
(202) 566-0829 or copper.carolyn@epa.gov.




1
  On 8/7/07, we obtained a “checkbook” report from ORBIT for this account as of 8/7/07. However, the date of the
most recent entry is May 31, 2007.


                                                       2

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
     Rec.    Page                                                                                               Completion   Claimed    Agreed To
     No.      No.                          Subject                      Status1           Action Official          Date      Amount      Amount

      1        2     Reclassify
                         	       approximately $2.8 million (plus             O        Region 5 Administrator                 $2,800
                     additional accrued costs) of the Thermo Chem
                     special account to fund other priority response
                     activities.

      2        2	    Reclassify, or transfer to the Trust Fund (as            O        Region 5 Administrator                  $524
                     appropriate), approximately $524,000 of the
                     Thermo Chem special account that has no
                     planned future use.




1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress




                                                                                  3

                                                                              Appendix A

                                    Distribution

Regional Administrator, Region 5
Assistant Administrator, Office of Enforcement and Compliance Assurance
Assistant Administrator, Office of Solid Waste and Emergency Response
Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Superfund Division Director, Region 5
Audit Liaison, Region 5
Enforcement Coordinator, Region 5
Resource Management Division, Region 5
Remedial Project Manager, SFD, Region 5
Office of Regional Counsel, Region 5
Director, Office of Site Remediation and Technology Innovation
Director, Office of Site Remediation Enforcement
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             4

